No. ______
IN THE

Supreme Court of the United States
BLAKE CRETACCI,
Petitioner,
v.
JOE CALL, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Matthew S. Hellman, hereby certify that I am a member of the Bar of this
Court, and that I have this 13th day of August 2021, caused three copies of the Petition
for a Writ of Certiorari to be served via overnight mail and an electronic version of the
document to be transmitted via the Court’s electronic filing system to:
Nicholas Lastra
Darrell G. Townsend
Howell & Fisher
3310 West End Avenue
Suite 550
Nashville, TN 37203
(615) 244-3370
Counsel for Respondents

/s/ Matthew S. Hellman
Matthew S. Hellman

